r
5

No.
IN THE
SUPREME COURT OF THE UNITED STATES

Michael Jones—PETITIONER
(Your Name)
vs.

United States Court of Appeals For The Fifth Circuit—RESPONDENT(S)
PROOF OF SERVICE
do swear or declare that on this date, August. 26. 2021
.
Michael Jones
I,
as required by U.S. Supreme Court Rule 29,1 have served the enclosed PETITION FOR
A WRIT OF CERTIORARI on each party to the above proceeding or that party’s
counsel, and on every other person required to be served, by depositing an envelope
containing the above documents in the United States mail properly addressed to each of
them and with first-class postage prepaid, or by delivery to a third-party commercial
carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
1.

Solicitor General of the United States
Department of Justice
950 Pennsylvania Avenue, N. W.
Room 5616
Washington, DC 20530-0001

I declare under penalty of perjury that the foregoing is true and correct.
Executed on- August. 26. 2021

Michael Jones

(Signature)

